<html>
<title> - AMERICAN COMPASSION IN INDIA: GOVERNMENT OBSTACLES</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]











                     AMERICAN COMPASSION IN INDIA: 
                          GOVERNMENT OBSTACLES

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            DECEMBER 6, 2016

                               __________

                           Serial No. 114-241

                               __________

        Printed for the use of the Committee on Foreign Affairs



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]











Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                                 ______
                                

                         U.S. GOVERNMENT PUBLISHING OFFICE 

22-864 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
DANIEL DONOVAN, New York

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
               
               
               
               
               
               
               
               
               
               
               
               
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Stephen Oakley, general counsel and vice president of the 
  General Counsel Office, Compassion International...............     4
Mr. John Sifton, acting deputy Washington director, Asia Advocacy 
  Director, Human Rights Watch...................................    12
Irfan Nooruddin, Ph.D., Hamad bin Khalifa professor of indian 
  politics, Walsh School of Foreign Service, Georgetown 
  University.....................................................    17

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. Stephen Oakley: Prepared statement...........................     7
Mr. John Sifton: Prepared statement..............................    14
Irfan Nooruddin, Ph.D.: Prepared statement.......................    19

                                APPENDIX

Hearing notice...................................................    48
Hearing minutes..................................................    49
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    51

 
           AMERICAN COMPASSION IN INDIA: GOVERNMENT OBSTACLES

                              ----------                              


                       TUESDAY, DECEMBER 6, 2016

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 10:09 a.m. in 
room 2172, Rayburn House Office Building, Hon. Edward Royce 
(chairman of the committee) presiding.
    Chairman Royce. This hearing will come to order.
    And to put this hearing in perspective, I want to make a 
point about India. As chairman and as a leader of the India 
Caucus, I helped build that caucus from just 12 members to 160 
members. I managed the U.S.-Indian civil nuclear agreement on 
the House floor and beat back the anti-India amendments, which 
would have killed the agreement.
    I carried the original bill to lift sanctions on India in 
the 1990s and traveled with President Clinton on his historic 
trip to India. I was tasked with briefing President Bush on the 
importance of deepening our relationship with India on 
counterterrorism and on trade. And I flew into Bhuj with USAID 
the day after the Gujarat earthquakes and first met then Chief 
Minister Narendra Modi, who was on the ground bringing order 
out of chaos. I admired him for the work he had done, and I 
admire him today for what he is trying to do in India.
    I traveled to Mumbai the day after the terrorist attacks to 
meet with Indian intelligence officials and press the 
Government of Pakistan to either try the LeT terrorists or turn 
them over to The Hague to be tried for crimes against humanity 
by the International Criminal Court. I was one of the leading 
voices pushing for a U.S. visa for Chief Minister Modi. I 
extended the invitation for Prime Minister Modi to address a 
joint meeting of Congress, a historic occasion we celebrated 
this June, and I also personally hosted the Prime Minister at a 
reception in his honor.
    My chief of staff, Amy, and her daughter, who is Indian 
American, have for years sponsored and built a relationship 
with a girl in India. These two 7-year-olds draw and send 
pictures to each other. They share what games they like to play 
and what food they like to eat. That bonding experience is the 
same for the other American families that also send, each of 
them, $38 every month to 145,000 children, the poorest of the 
poor in India. These are children who would otherwise be 
without enough food and without the fees that they need for 
their education.
    Americans have been sending these checks, through an 
organization called Compassion, to India for nearly 50 years. 
In India, it is the single largest contributor of aid for 
children living in extreme poverty.
    Now, Amy and thousands of other American families are being 
obstructed from supporting these children. This is despite the 
best effort of Secretary of State John Kerry and of myself and 
others on the committee. We have spent 9 months and hundreds of 
hours dealing with the Indian bureaucracy on this, and it looks 
like the bureaucracy is trying to run out the clock.
    We as Americans deal with American bureaucracy. It is part 
of the job here as members of the House of Representatives. We 
work for our constituents, but we don't always win. 
Bureaucracies are stubborn, stubborn things in America, let me 
tell you.
    Presidents can have a vision, but that vision can be 
frustrated by the bureaucracy. Prime Minister Modi has a vision 
about India. He is self-made. He was never a member of some 
elite. He was the son of a poor man. As he says, ``the son of a 
poor man standing in front of you today,'' and as he said, ``I 
am devoted to the development of all; the Dalit, the oppressed, 
the underprivileged, the deprived. A government is one that 
thinks and hears the voice of the people. A government must be 
for the poor.''
    But bureaucracies have their own dynamics, and they can 
stifle any President or Prime Minister's dreams. For the past 9 
months this committee has had meetings, written letters, made 
phone calls, and for that I thank our members.
    This isn't a hearing that the committee expected to be 
holding. It is my hope that by bringing attention to this 
issue, as we are doing here today, the 145,000 children will 
not be tragically denied the services they desperately need and 
that American families like Amy's can continue to send the $38 
a month for food and education fees to the poorest of the poor.
    I know the ranking member will be with us momentarily. In 
the meantime, I will introduce our panel, and then move to the 
ranking member's remarks once he arrives.
    This morning, we are pleased to be joined by a 
distinguished panel. Mr. Stephen Oakley is the general counsel 
and vice president of the General Counsel's Office at 
Compassion International. He joined Compassion in 2011 where he 
is responsible for overseeing their domestic and international 
legal and government affairs.
    Mr. John Sifton is acting deputy Washington director and 
Asia advisory director at Human Rights Watch. He began working 
at Human Rights Watch in 2001 where he has focused on 
Afghanistan, Pakistan, and India, and previously he worked for 
the International Rescue Committee.
    Dr. Irfan Nooruddin is a professor of Indian politics and 
director of the India Initiative at Georgetown University. He 
is the author of Coalition Politics and Economic Development 
Credibility and the Strength of Weak Governments.
    Without objection, by the way, the witnesses' full prepared 
statements will be made part of the record. Members are going 
to have 5 calendar days to submit statements or questions or 
extraneous material for the record.
    I am going to go to our ranking member, Mr. Eliot Engel of 
New York. But I am going to ask, when we go to the panelists, 
if you will summarize your testimony to 5 minutes, and then we 
will go to questions.
    Mr. Eliot Engel of New York.
    Mr. Engel. Thank you, Mr. Chairman. Thank you for calling 
this hearing today. I welcome the chance to speak with you 
about Compassion International's recent struggles in India, and 
I know this is an issue close to your heart.
    As you know, I share your concern about challenges some 
NGOs are facing in India. My staff and I tried to assist in 
resolving the situation, and I hope following this hearing we 
can find a way forward on this issue. And I am grateful, as 
always, for your leadership.
    To our witnesses, welcome to the Foreign Affairs Committee. 
We are grateful for your time and expertise.
    More than 20 years ago, I was one of a handful of Members 
of Congress who founded the caucus on India and Indian 
Americans. At that time the U.S. relationship with India 
focused more on what our two countries couldn't do together 
rather than what we could do together. Today, in my view, the 
U.S. relationship with India is one of our most important, 
driven by our shared interests and shared values.
    We have made progress in so many areas. India now 
participates in more military exercises with the United States 
than any country in the world. Once the sticking point between 
our governments, nuclear cooperation has become the lynchpin of 
a renewed U.S.-India partnership.
    On climate change, India has already ratified the Paris 
Agreement. Trade between India and the United States continues 
to expand. Supporting thousands of American jobs, it has nearly 
tripled from 36 billion in 2005 to over 107 billion in 2015. 
India's strategy to expand economic engagement in Asia aligns 
closely with our own Asia rebalance.u
    The list goes on and on from space exploration, to shared 
concerns in the Indian Ocean region, to economic growth; we are 
collaborating on more issues than ever before. Much of this 
progress is due to our people-to-people ties rooted in the 3 
million strong Indian-American community. Thanks to their 
advocacy and the hard work of dedicated leaders of all 
political ideologies in both countries, the United States and 
India are now closer than ever before. But this doesn't mean 
that the United States and India will agree on everything. And 
when we don't see eye to eye, we need to have honest 
discussions and work toward good solutions. And that is why we 
are doing this hearing today on the NGOs and other things 
involving the U.S.-India relationship.
    I discussed earlier the importance of the values that the 
United States and India both share. This goes beyond the cliche 
of being the world's oldest and largest democracies, we embrace 
our traditions of political freedoms, of free and fair 
elections and of a vibrant, vocal civil society.
    The United States nor India, neither one of us, are 
strangers to contentious political debate. Our recent elections 
are a great example of that, and India has a long rich 
tradition of raucous political campaigns. The free debate is 
the cornerstone of democracy. So I was concerned by reports 
earlier this year that a college student, a student body 
president, was arrested for making what was deemed antinational 
statements. College campuses have long been a hotbed of 
political activism. And whether we find this activity agreeable 
or objectionable, these democracies need to protect the right 
of free expression and free assembly, and again I know the 
chairman is very concerned about that as well.
    I have been concerned by reports that NGOs are having 
difficulty registering and operating in India. Civil society 
plays a pivotal role in democracy, holding government 
accountable and standing up for the rights of marginalized 
groups. So it is troubling that a country with such a long 
tradition of an empowered and active civil society might be 
going down this path. We can't avoid the hard questions or 
avoid discussions simply because they are difficult 
conversations to have. This is how democracies work, warts and 
all.
    So I look forward to hearing from our witnesses today about 
all of these issues, the tremendous progress and potential of 
the U.S.-India relationship, but also in areas like 
international child abduction, where there is still a lot of 
work to be done. If we stay committed to deepening this venture 
further, if we think long term while working to meet day-to-day 
challenges, then this relationship will help both our countries 
become stronger and more prosperous and will become one of the 
defining partnerships of the 21st century.
    Thank you, and I look forward to your testimony.
    Thank you, Mr. Chairman.
    Chairman Royce. Thank you, Mr. Engel.
    We go now to Mr. Oakley.

   STATEMENT OF MR. STEPHEN OAKLEY, GENERAL COUNSEL AND VICE 
      PRESIDENT OF THE GENERAL COUNSEL OFFICE, COMPASSION 
                         INTERNATIONAL

    Mr. Oakley. Good morning, Mr. Chairman, Ranking Member 
Engel, members of the Foreign----
    Chairman Royce. Mr. Oakley, there is a button right there 
that you can press. We can hear you there.
    Mr. Oakley. Thank you, Mr. Chairman.
    Good morning, Mr. Chairman, Ranking Member Engel, members 
of the Foreign Affairs Committee. My name is Stephen Oakley. I 
am Compassion International's general counsel. It is my 
privilege to speak with you today on the topic of Compassion's 
specific experience in India and the reason that Compassion is 
merely weeks away from permanently withdrawing its operations 
in India.
    By way of a brief background, since 1952, it has been the 
mission of Compassion to help children living in extreme 
poverty around the world. And today, Compassion is the world's 
largest child sponsorship NGO with 1.9 million children in 26 
countries in Asia, Africa, and Latin America.
    Compassion has been in India since 1968, and for five 
decades now, Compassion has worked without incident under the 
authority of successive Indian Governments. That abruptly 
changed in 2013 when Compassion encountered the first of a 
series of legal and regulatory attacks. This came about in the 
form of tax cases, in which the government assessed over $18 
million in corporate income tax on the charitable donations to 
our locally incorporated South India entity.
    That was followed by a series of different attacks. 
Intelligence bureau investigations, enforcement directorate 
cases, you have before you as an exhibit to my brief a copy of 
the Ministry of Home Affairs order. It is a prior approval 
order that prevents Compassion from getting any money into 
India without the advanced clearance of the ministry, which we 
have found to be a fiction.
    Finally, both of the FCRAs of Compassion's locally 
incorporated entities have been denied. We have sought legal 
advice from multiple lawyers, chartered accountants in India. 
And to a person, they have assured us and provided us the 
advice that our operations are legal and lawful under the laws 
of India. And to a person, they have suggested that to the 
extent the law is being broken in India, it is being broken by 
the Indian Government in advancing extremely aggressive and 
legally unsupported interpretations of existing law, knowing 
that charities often lack the resources or expertise to 
challenge these interpretations, and when they do, the 
challenges will take years in court.
    In discussions with other faith-based NGOs and my own 
reading of the relevant portions of the Indian constitution and 
their Tax Act and their FCRA laws, I have come to the 
conclusion that Compassion is experiencing an unprecedented, 
highly coordinated, deliberate, and systematic attack to drive 
Compassion out of India. Anecdotally, I am hearing similar 
stories from other faith-based and civil society organizations.
    The reason, apparently, is the Government of India wrongly 
believes that faith-based organizations are using humanitarian 
efforts to convert Indians to Christianity. And these attacks 
are occurring under the guise of regulatory compliance. But 
these reasons are a fiction. It is religious discrimination, 
pure and simple.
    The behavior of the Indian Government toward Compassion and 
other faith-based NGOs is in my view illegal. It is 
inconsistent with the values of freedom of expression and 
freedom of religion, which the Indian constitution specifically 
guarantees.
    Now, as a committee, why should you care? First, as one of 
the largest NGOs in the world and as the number-one importer of 
foreign NGO currency into India, if Compassion is forced to 
withdraw, in my view, this represents a green light to the 
Indian Government to take the same or similar action against a 
range of other faith-based and secular NGOs. That is a real 
risk.
    Second, if the rule of law is breaking down in India, as I 
believe it is, that impacts not only civil society 
organizations, not only the NGO sector. That presents a real 
risk to foreign business in India, to United States businesses 
in India. The rule of law is essential for all corporations, 
including not-for-profits and for-profits.
    Finally, you should care because the Indian Government has 
made no plan, no provision whatsoever, for the 145,000 children 
that Compassion cares for in India. There is no plan for them 
when we depart.
    To that end, I have three requests. First, we humbly ask 
that this committee demand that the Indian Government 
immediately rescind the prior approval order, which our counsel 
tell us was illegally issued and is illegal under their law.
    Second, we ask that this committee demand that the Indian 
Government reinstate the FCRAs of both of Compassion's locally 
incorporated field offices in India that have operated for over 
a decade successfully. Our counsel tells us their revocation 
was illegal.
    Third, we ask that you continue to make the fair treatment 
of NGOs in India a precondition across a spectrum of other 
issues between India and the United States. Link it to other 
issues that India cares about. Consequences only have value if 
they result in changed behavior, so I ask that you send the 
Indian Government a strong message that this matters to the 
United States.
    Again, there is no plan for these children if we depart. So 
we ask you to ask the Indian Government to reconsider its 
decision. Thank you very much. I would be happy to take your 
questions.
    [The prepared statement of Mr. Oakley follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
        
                              ----------                              

    Chairman Royce. Thank you, Mr. Oakley.
    We go to Mr. Sifton.

    STATEMENT OF MR. JOHN SIFTON, ACTING DEPUTY WASHINGTON 
      DIRECTOR, ASIA ADVOCACY DIRECTOR, HUMAN RIGHTS WATCH

    Mr. Sifton. Thank you for providing me the opportunity to 
testify today. It may be a moment of transition here in 
Washington, but this hearing is actually extremely well-timed. 
As my copanelist has already noted, there is a troubling new 
crackdown underway in India today, especially in the last few 
months.
    A large number of nongovernmental organizations--
international, domestic, religious, secular--have faced 
increasing government harassment in the last few months and in 
the last few years, including intrusive and politically 
motivated legal scrutiny. And the U.S. Government, a close 
ally, needs to better respond. And the incoming Congress and 
incoming administration needs to give this issue more attention 
than it has already received.
    My testimony, in summary, is about how the Indian 
Government is specifically creating for NGOs these problems. So 
let's go down to specifics.
    The main and most powerful tool the Indian Government has 
for harassing NGOs is the Foreign Contribution Regulation Act, 
the FCRA. It is an overbroad and poorly worded, poorly drafted 
law that contains provisions that basically can be abused to 
block foreign funding for groups, deregister them, and stymie 
their activities.
    The problems with the FCRA are twofold. First, it is overly 
intrusive. It basically gives the government too much power. 
The Home Ministry is given powers that it ought not to have, 
powers to look into an organization's specific projects and 
question them. Its provisions are both overbroad and 
overreaching. It gives the government the power to cut funding 
for organizations on the vague grounds that they are ``likely 
to affect prejudicially the economic interest of the State'' or 
its ``public interest.''
    The FCRA has been used and abused by successive Indian 
Governments. The Congress government abused this law as well, 
but its use and abuse has increased significantly with the 
current BJP government. Last year the government used FCRA 
provisions to harass numerous NGOs, including Greenpeace India, 
as well as an organization run by the activist, Teesa Setalvad 
that has brought legal cases seeking justice for victims of the 
2002 Gujarat violence. As you know, Prime Minister Modi was the 
chief minister in Gujarat in 2002, and there are numerous 
allegations about his complicity in the violence. So you can 
imagine that when people who are seeking justice for that 
violence are gone after, it very clearly looks politically 
motivated.
    This May, the government suspended for apparently 
politically motivated reasons the FCRA's status of the Lawyers 
Collective founded by the prominent lawyers Anand Grover and 
Indira Jaising. The Lawyers Collective has represented Setalvad 
and the Greenpeace activists, who are targeted, among others. 
And just a few weeks ago, the government canceled the Lawyers 
Collective's registration under the FCRA.
    Abuse of FCRA has intensified in recent months. In October 
alone, the government refused to renew the FCRA of at least 25 
NGOs without valid reasons, lead us to issue a statement about 
it. Several domestic human rights groups were deregistered. The 
Ministry of Home Affairs told media that the NGOs were denied 
FCRA registration because their activities were ``not in the 
national interest.''
    Several of the specific cases from October are outlined in 
the written version of my testimony. But let me give the 
context. All of these new harassments under the FCRA come as 
attacks on freedom of expression and association in India have 
been on the rise. In the last 2 years, Human Rights Watch has 
observed how Indian authorities have increasingly used the 
country's sedition law against peaceful critics, including 
activists and artists and students, for alleged 
``antinational'' speech.
    Other overbroad and vaguely worded laws, including India's 
criminal defamation and hate speech laws, are also used to 
harass and prosecute those who have expressed dissenting or 
unpopular or minority views.
    The harassment of NGOs is taking place in a context in 
which religious minority groups, in particular Muslims and 
Christians, are at increased risk. Let's be clear, since the 
BJP came into power in 2014, militant Hindu groups have been 
increasingly threatening and sometimes even physically 
assaulted Christians and Muslims.
    The consequences of these tensions go beyond human rights 
concerns, as my copanelists have mentioned, and affect even 
India's economy. So I think it is important that the U.S. 
Government and incoming administration take this seriously not 
just from a human rights point of view but from an economics of 
view.
    The basic recommendation my testimony gives are that, 
first, the incoming administration and the incoming Congress 
and Members should raise concerns about the FCRA more publicly. 
When U.S. officials speak with Indian officials, they be should 
raise concerns about the FCRA directly and mention publicly 
that they are doing so.
    They should enlist the support of U.S. corporations and 
other private sector actors whose charitable activities are 
impacted by this. I think if U.S. corporate and business 
leaders are also raising this, it will have an enormous impact 
beyond, you know, groups like Human Rights Watch raising these 
issues.
    And last, just speak out about the rise in violent attacks 
by Hindu nationalists on Christians and Muslims and other 
minority groups. I mean, the Government of India needs to hear 
complaints from outside the country about these issues.
    The written version of my testimony outlines those 
recommendations in more detail, but thank you for allowing me 
to testify today. And I will be glad to answer questions.
    [The prepared statement of Mr. Sifton follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    
                              ----------                              

    Chairman Royce. Dr. Nooruddin.

    STATEMENT OF IRFAN NOORUDDIN, PH.D., HAMAD BIN KHALIFA 
PROFESSOR OF INDIAN POLITICS, WALSH SCHOOL OF FOREIGN SERVICE, 
                     GEORGETOWN UNIVERSITY

    Mr. Nooruddin. Good morning, Chairman Royce, Ranking Member 
Engel, members of this distinguished committee, committee 
staff. It is a pleasure to be here this morning and to have 
this opportunity to speak to you.
    The FCRA, or the Foreign Contributions Regulatory Act of 
2010, which is at the core of today's hearing, is a revision 
and amendment of an earlier act that was passed in 1976. The 
FCRA of 1976 was passed in the height of India's Emergency 
period, which is the one brief interlude where India veered 
toward an autocratic rule before coming back to its democratic 
core. I would say that over the 40 years since the FCRA 1976 
was passed, the India-U.S. relationship has deepened and has 
become a truly strategic partnership thanks in no small part to 
the efforts of many of you.
    But the FCRA hasn't improved with time. And, in fact, its 
antidemocratic roots are very much on display, as has been 
remarked upon by our copanelists today. While I talk about FCRA 
in civil society, I do think, though, it is important to put 
into context the broadest strategic relationship that has been 
built, thanks to the investments of the United States 
Government across administrations and by the Indian Government 
across its governments. The defense relationship is stronger 
and deeper, with more potential than at any prior time in 
either country's history.
    The signing of the LEMOA agreement earlier, the start of 
the joint exercises in Malabar, the defense procurement 
potential between India and the United States all represent 
opportunities that even 10 years ago, at the height of that 
civil nuclear deal that Chairman Royce referenced, would have 
been quite unthinkable to have happened so quickly. So this is 
a really tremendous success.
    In energy and the environment, there is a level of dialogue 
between the United States Government and the Indian Government 
that I think transcends just energy and environment and has 
business implications for technology transfer and technical 
assistance that is quite far reaching and transformative. And 
the fact that between September of this year, when the Indian 
Government stated a position on the Paris Agreement that it 
could not imagine signing it, to today, 2 months later where it 
has, is really a revelation that United States pressure on 
issues of climate change and energy paid dividends.
    The Indian Government recognizes the United States as a 
crucial partner, and I think sees its viewpoints as those that 
have to be taken seriously. This is all enhanced by a very 
vibrant commercial relationship that is in its own way 
developed by that diaspora population that has now become a 
prominent part of American society, contributing to every 
aspect of American life.
    So it is against a very promising and optimistic background 
that we come here today to discuss what has remained a sore 
point, and that is India's record on civil society and on its 
base core democratic principles. This is especially troubling 
given that the two countries are united not just by strategic 
interests but by a shared commitment to principles of democracy 
and to religious freedom.
    India is among the most religiously diverse countries in 
the world. With one of the largest populations of Muslims, a 
Christian population that dates back millennia, and is home to 
major world religious. And so any strikes against religious 
freedom in India should trouble us all, not just those who are 
particularly interested in India. If religious freedom cannot 
succeed in India, it has a very poor chance of succeeding in 
other parts of the developing world.
    So what happened? From my perspective, it is important to 
understand that the FCRA in 1976 was passed so that the Indian 
Government could regulate foreign contributions to pro-
democracy, antigovernment organizations but in the context of 
an autocratic government of Prime Minister Indira Gandhi, who 
was very afraid of domestic dissent, pushing back against the 
Emergency.
    This has continued and all governments have used the FCRA 
to stifle NGOs. The question, therefore, today is sort of how 
bad has it gotten and what are the implications for religious 
freedom?
    My colleagues have mentioned a couple of numbers. The one I 
would point to you is that in 2012 there were 43,000 
associations registered under the FCRA. Today, that number is 
halved. It is down to about 20,000. That is about 20,000 NGOs 
that either have chosen not to reapply for their licenses, or 
who have had their licenses not renewed by the Indian 
Government.
    If you go to the FCRA Web site on the Ministry of Home 
Affairs, they list 11,300-plus NGOs that have not had their 
FCRA licenses renewed.
    There are a number of reasons for this. Many of these are 
undoubtedly in violation of the letter of FCRA regulations. But 
the broader issue here is the transparency or lack thereof of 
the Indian Government and how it has enforced and how it has 
changed its interpretation of FCRA regulations over the last 4 
years has placed a lot of NGOs in violation of a law that they 
thought they understood and thought that they were following. 
This has a chilling effect on civil society that has to be 
considered.
    So just to close, and I am happy to take questions, I think 
the key recommendation I would make from my perspective is that 
the United States Government has to put pressure on the Indian 
Government to clarify and make transparent how it understands 
and plans to enforce the FCRA, what are the procedures for due 
process and for appeal for an association found in violation of 
the FCRA, and to assure all parties, both in India and in the 
United States, that it is not being used to target faith-based 
religious organizations that, I should make explicit, are not 
in violation of the FCRA simply by being faith-based or 
religious organizations.
    There is nothing in the FCRA that prevents a faith-based 
organization from doing charitable work in India. I think we 
can come back to this in Q&A, but I think my colleagues have 
talked about the possibility of this being religious 
discrimination smuggled behind the guise of taxation. I am not 
sure that I would endorse that position fully. That requires 
deeper analysis, but I think there is enough to warrant real 
concern. Thank you.
    [The prepared statement of Mr. Nooruddin follows:]
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
    
                              ----------                              

    Chairman Royce. Thank you, Dr. Nooruddin.
    I am going to go now to Mr. Eliot Engel of New York.
    Mr. Engel. Dr. Nooruddin, I just have one quick question. 
Mr. Oakley and Mr. Sifton were talking about Compassion 
International, and I wondered--the experience that Compassion 
International is going through--are other NGOs facing this kind 
of harassment in the magnitude that Compassion International 
seems to be hassled?
    And what should, in your opinion--we have a new 
administration coming in--what should that administration say 
to the Indian Government, knowing full well that our 
relationship with India is a very important and strategic 
relationship, getting warmer, getting better. We all like it. 
We all think it is important, and we think the Indian diaspora 
here in the United States plays a major role.
    You know, it is sort of a delicate diplomatic move where 
you want to whisper in your friend's ear, and you want to tell 
them that you are not happy with certain things, but you don't 
want to worsen the relationship. You don't want to ruin it. How 
do we create that delicate balance? What should we be doing 
there?
    Mr. Nooruddin. Thank you for a very good question. Let me 
start with the first one, which is in some sense easier even if 
it is not a very positive answer. Is Compassion International 
alone in its experience, the short answer is no. As I said, 
over 11,500 NGOs have not had their licenses renewed over the 
last couple of years. Now, to be fair, a lot of these are 
affiliates of foreign-backed NGOs. So the FCRA regulations 
require that any money that is dispersed through an association 
by, say, Compassion International, the recipients of that money 
have to also have FCRA licenses. So there are a lot of 
associations.
    High-profile examples that have already been mentioned are 
Greenpeace, but others include the National Endowment for 
Democracy and the Ford Foundation, both of which ran afoul of 
FCRA regulators, lost their licenses, and only after some 
negotiations has the Ford Foundation, for instance, been 
reinstated though under a completely different instrument of 
the Indian Government that is arguably just as stringent and 
intrusive in managing how the Ford Foundation will function.
    So I don't think this is just about Compassion 
International. I think it is very widespread and quite broad.
    The broader question of, you know, how do we do this in a 
way that recognizes that this is an important relationship, 
that these are very centrally sensitive domestic politics 
questions in India, the core issue, I think, in a lot of this 
discussion is that the Indian Government is deeply concerned 
and has been across governments, but maybe more so today, about 
religious harmony, or put differently, the risk of communal 
discord at the local level.
    This communal discord occurs when local actors complain 
that a local association is using its NGO status to 
proselytize, to evangelize, to convert people to Christianity, 
even if that is not, in fact, what they are doing. This, then, 
you know, percolates up to Delhi where the Ministry of Home 
Affairs will then choose to investigate.
    So I think the Indian Government is increasing it because 
of its own definition of antinational activities is likely to 
put a real damper on many of these sorts of things. And, yet, 
the diplomatic relationship is very deep. There was a great 
deal of concern in India that we will return to a transactional 
relationship between India and the United States as opposed to 
a strategic relationship. This is meant to suggest that what 
India won't respond well to is being told, if you don't do 
this, here is what we are going to pull away. Right? They want 
to see a strong, deep relationship that can survive temporary 
disagreements. But I think on our end, that requires that we 
take them at their word for it and be willing to ask very hard 
questions about this.
    You mention the diaspora population. So let me say in 
closing, the diaspora population in the United States is an 
extremely generous, charitable population which gives back to 
India lots of money benefiting education and social services.
    All of that money is also at risk if the FCRA is used to go 
after charitable organizations that the Indian Government sees 
as being unpleasant.
    American businesses doing work in India are going to be 
held under corporate social responsibility requirements. All of 
those contributions are going to be at risk if suddenly the 
Indian Government can scrutinize how those moneys are given. So 
this is not just about a particular NGO and a particular 
agenda. This really becomes a relationship of all American 
citizens who want to contribute to India's development suddenly 
worrying about whether their money is going to be impounded, 
whether their partners in India are going to be scrutinized and 
at the risk of criminal offenses.
    So I think we have a great diplomat--I applaud Ambassador 
Verma for the work he has done while he has been in office. I 
think he should be empowered by you to come here to speak 
frankly to a good friend in India and hopefully the 
conversation will improve rather than worsen.
    Chairman Royce. Thank you. Well, thank you, Dr. Nooruddin.
    I would follow up maybe also with just a thought. Besides 
communicating with our Ambassador, and of course, we have 
communicated with the former Ambassador of India here, do you 
have any other thoughts about how we can dialogue on this 
issue? Of particular concern to me is what is going to happen, 
you know, if we end up without the ability to have Americans 
support these 145,000 Indian families that sort of rely on it 
in terms of whether the children are going to get an education 
or enough food?
    Mr. Nooruddin. Chairman Royce, I think that is a fair 
question. I wish I had an optimistic answer to give. As you 
point out, bureaucracy is a stubborn thing. And it is--the 
Ministry of Home Affairs, which is, I will give you, the most 
powerful of India's ministries, has taken a very strong 
position on this in ways that are going to make it politically 
difficult for them to back down in any way that suggests they 
are backing down to external pressure.
    There is a strong domestic constituency in India, however, 
that is deeply concerned about Christian missionaries' 
activities that frankly forms the support base for the current 
government. And so I think they are going to want to pay 
attention to that.
    Chairman Royce. But, doctor, here is the point, and this is 
a conversation I had with the Ambassador: We are fairly 
familiar with the operations of Compassion, because they also 
operate in Indonesia, a country that likewise, would be 
concerned about conversions in activity. And what we have found 
is that largely, this is a myth. They are not involved 
proactively in doing that. It is a rumor. And so the 
suggestion, which I think is an easy one, to resolve the issue, 
is that if you have a particular channel partner--you know, 
there are 580 channel partners that are involved in that, all 
right, you take that off the table, but you allow the rest of 
the families here in the United States to write those checks to 
continue to support that effort and to not only give moral 
support but give the opportunity for those younger kids in 
these families, in situations that are so challenged, where 
they can actually complete their education. I mean, it just 
seems to me that there are the makings here for a compromise in 
this, which keeps the program open.
    And maybe I could ask Mr. Oakley on that question. Going 
forward, is there an opportunity to move forward in a way that 
would guarantee the support for the destitute that rely on the 
contributions that come into the country?
    Mr. Oakley. Thank you, Mr. Chairman. Currently, no, there 
is no path that we see as long as the current MHA order, the 
prior clearance order, which you all have a copy of, is in 
place. That order prevents Compassion's funds from being 
credited to the recipients without the prior approval of the 
Ministry of Home Affairs. We have worked for 7 months to obtain 
that prior approval, and we have been unsuccessful.
    Chairman Royce. So let us say for a minute, though, that 
there was a change of heart, and a decision to go channel 
partner by channel partner, you have 580 channel partners, and 
to just review the channel partners and those that are not 
engaged in activities of--I mean, it seems rather dogmatic to 
shut down the largest program, whole scale, that offers 
financial support to this sector in India.
    Mr. Oakley. Thank you. We completely agree. And, of course, 
we have submitted over 120 channel partners for review by the 
Ministry of Home Affairs. To this point, they have not even 
responded to our requests for that prior clearance for that 
group.
    And in point of fact, some months ago, when we first heard 
that there were a few--they describe it as a few black sheep in 
the flock. We said, tell us who those black sheep are, and we 
will within 24 hours separate our partnership with them to 
alleviate all of your concerns. So that was our offer to them.
    Subsequently, we agreed to not partner with any channel 
partner that had not received its NGO before the deadline--
excuse me--its FCRA before the deadline to receive it, and that 
too did not produce any desired results. Our inability to 
communicate with MHA directly has been a source of significant 
frustration.
    Chairman Royce. So there is the outline, obviously, for a 
resolution that would fit within their perspective if the 
decision could be made to look individually at these channel 
partners and then release the funds.
    Well, let me--my time has expired. Let me go to Mr. Bera 
next.
    Mr. Bera. Thank you, Mr. Chairman.
    When I think about where we are in the U.S.-India 
relationship in a broad scope, it is at, really, a peak right 
now in terms of bilateral trade, in terms of bilateral security 
cooperation, in terms of--you know, if you look at where the 
diaspora is, here in the United States as well, it is also 
hitting a high note.
    I am the only Indian-American Member of Congress currently, 
and I am thrilled that I will be joined in the House of 
Representatives by three additional members in the 115th 
Congress and our first Indian-American Senator. So in that, the 
diaspora is starting to step up, and as Dr. Nooruddin 
mentioned, is extremely philanthropic. And I would venture most 
of that philanthropy is going back to India.
    And my concern with how this issue is resolved is that we 
don't want to decrease that philanthropy. We don't want to 
discourage folks, not just the diaspora but others that want to 
do good around the world from continuing to contribute and make 
those donations.
    And in my conversations with the chairman, that is my 
concern. If you have one ministry, if you have someone in the 
MHA setting policy, that potentially becomes disruptive to many 
other NGOs, that is just a bad precedent. I understand the 
sensitivities in India as well, that they don't want to see the 
House of Representatives or a foreign government dictating what 
their own domestic policy should be. But from my perspective 
and my review, Compassion International has done everything 
that they can to be transparent to meet the guidelines and the 
compliance here and continue to do the work that they do along 
with other NGOs.
    I would be curious, in terms of just following up on the 
ranking member's question, Dr. Nooruddin, the role that the 
diaspora might be able to play here in terms of resolving some 
of these issues, again, understanding that the diaspora 
increasingly is making philanthropic investments in India.
    Mr. Nooruddin. The diaspora, I think, especially with four 
Indian-Americans in Congress, a first Indian-American Senator 
and possibly an Indian-American as the U.S. Representative to 
the United Nations, is a source of great pride in India. Many 
newspapers reported the day after the election about your 
success and your colleagues' success as much as they reported 
on the result of the Presidential election. I mean, it is a 
tremendous source of pride.
    So I think that this is, in fact, a great point of 
leverage. There is a population in the United States that is 
very deeply engaged at home in India through their 
philanthropy. Their philanthropy goes through exactly the kind 
of work that Compassion International does in serving those 
that are most marginalized, especially children. And so I think 
the Indian-American community can understand that its voice 
will be heard in India, that it should recognize that if it 
signals to the Indian Government that an attack on Compassion 
International or any of these other NGOs that are doing the 
work that are trying to abide by the rules is going to be 
perceived as an attack on their own work, that they see that 
their contributions are likely to be addressed. Because I think 
this is will be heard loud and clear.
    This is not a relationship, meaning with the diaspora 
population, that the Indian Government wants to endanger. They 
do see this as a real strategic strength and also as one that 
has, you know, crossed domain and that it brings commercial 
ties and all sorts of other things back.
    I also think that, you know, the issue that you kind of 
hinted at in your remarks, Mr. Bera, concern about the 
definition of antinational. One of my colleagues on the panel 
also remarked about this, but really the most worrisome part of 
the FCRA regulations has been that the Indian Government has 
adopted a very wide interpretation of what constitutes 
antinational activity.
    In the case of Greenpeace the cited reason was that in 
highlighting the potential environmental damage of some 
industrial projects, Greenpeace would hurt India's economy and 
this is, therefore, antinational. If that is the--if talking 
about Christianity to young children might induce some of them 
to be attracted to convert thereby upsetting other actors in 
the village, and that this is, then, deemed antinational, in 
effect, what antinational becomes is a license that anything 
the government doesn't agree with is antinational.
    So there is no end in sight for that. And I think all of us 
who want to see India develop, who want to contribute to the 
most impoverished have a reason to want to have a much more 
transparent interpretation of that ruling and one that is 
consistent with principles of freedom of speech and association 
and of religious freedom.
    Mr. Bera. Thank you.
    Chairman Royce. Mr. Smith.
    Mr. Smith. Thank you, Chairman Royce.
    First of all, to Mr. Oakley, thank you and Compassion for 
your extraordinary work living out Matthew 25, clothing the 
naked, feeding the hungry. I, like many members of this 
committee, are great admirers of your work, and I want to thank 
you for that worldwide, including in India.
    Let me just ask a question with regards to the threat to 
Compassion International, and I think many of you have already 
suggested this, is really the bitter fruit of a multi-year, 
ever-escalating attack on NGOs. It is happening in India. The 
International Religious Freedom Report in 2016 notes that in 
April 2015, the Ministry of Home Affairs revoked the licences 
of nearly 9,000 charitable organizations, and it points out 
that it really is because of their poor record, pointing out 
the poor record of India on human trafficking, labor 
conditions, religious freedom, environmental food issues as 
well, and I would add child abduction where they have scored 
horrifically with the most recent report under the Goldman Act. 
So there are a myriad of issues. And like China, India is just 
defaulting to throw them out.
    Later I am chairing the hearing as chairman of the 
Congressional-Executive Commission on China, on a look back 
over the last 8 years. We have seven people, all of whom have 
spent time in the Gulag, the lao gai as they call it in China, 
for their faith and for human rights causes. And we have had an 
inferior, weak, feckless response to China when it has come to 
human rights. And the parallels, particularly on the NGO laws, 
especially on the religious faith issue, it takes a turn in the 
curve, if you will, or a bend in the curve or the path, because 
in China it is to get to atheism.
    In India, it is to get to Hinduism rather than allowing, as 
the Constitution of India prescribes, a true robust religious 
freedom. It is being usurped by the current regime, but it does 
go back some years ago.
    In 2014, Hindu nationalists announced a reconvert effort. 
So, again, the bitter fruit of that is being realized. And, of 
course, six Indian states have very, very strong anti-
conversion laws.
    And, again, the U.S. Commission on Religious Freedom points 
out, and this is 2015, religious intolerance deteriorated, 
religious freedom violations increased, and they point out it 
is on a poor trajectory.
    It seems to me that the United States has a moral duty, our 
Government, to put a tourniquet to the greatest extent possible 
on this deterioration. And I would ask you, if you would, maybe 
Mr. Sifton, you might want to speak to this, because you did 
say the U.S. Government needs to respond. Has it, and has it 
done so in a way that is likely to achieve the results? By CPC 
designation under the International Religious Freedom Act it 
seems to me, perhaps the time has come now to so designate 
India.
    It does work in some countries to say, look, we are not 
kidding. You can't do this to Compassion. You can't do this to 
all of these other faiths including Muslims, and we are just 
going to turn the blind eye.
    Secondly, do you see a parallel, Mr. Sifton, especially, 
with China? It seems like the NGOs become the enemy if they 
don't comport to the government policies, and to what they 
conceive or believe is the way forward. India is a democracy, 
unlike China. We would expect far more from India than we are 
getting.
    So if you can speak to those issues, CPC designation and 
the parallels to China.
    Mr. Sifton. Well, there is no doubt. There is no doubt at 
all. There is worldwide crackdown on civil society underway, 
and this is but one example. Hindu nationalism in India is at 
the heart of what is going on in India.
    CPC designation, generally, needs to be overhauled. I have 
great respect for the current Ambassador, but the fact of the 
matter is when countries like Vietnam and India are not on the 
list, it creates huge questions about the criteria that are 
being used.
    I think the U.S. Government has a way in that is diplomatic 
and polite, the way two democracies can speak to each other 
effectively. The two principles I would recommend to the 
incoming administration and to this Congress is, A, parity. An 
Indian tycoon can give money to an American NGO like ACLU or 
pro-life group or pro-choice group, no questions asked. As long 
as it meets tax codes, it is fine. There are foreign agent 
laws, but that is for lobbying.
    The fact of the matter is an Indian NGO can give $1 million 
to an American organization. I, if I were a millionaire, which 
I am not, I cannot so freely give money to the Lawyers, 
Collective or Compassion. That is a question of parity.
    The second is consistency through the foreign investment 
vein of this current government. The Modi government is asking 
for foreign contributions. It is asking for international money 
to flow into the country from investment and, yet, when it 
comes to this type of money, the door closes.
    And I would just say--I mean, you can say this politely, 
but what is the biggest threat to the entity of India? 
Compassion's work, the Lawyers Collective's work, or Kentucky 
Fried Chicken? I don't know. I mean, I think it is a question 
of consistency. You say to them, if you are going to do this, 
you have to do it consistently, and we have to have parity. 
U.S. and India are allies, democracies, and we have to have the 
same approach to be----
    Mr. Smith. Would you recommend CPC designation now? Because 
it can be done at any time. Normally, it is done on a 
designated--yes.
    Mr. Sifton. I would think that the incoming Ambassador 
should give it a very hard look.
    Chairman Royce. Congresswoman Karen Bass from Los Angeles.
    Ms. Bass. Thank you, Mr. Chair.
    And let me thank the witnesses for your testimony today.
    And also, I don't know if it was staff or who put this 
information together, but I was happy to learn that there were 
several hundred sponsors in my district for Compassion's work. 
I have a large Indian population, and it is nice to know that 
they are actively involved in Compassion.
    I really wanted to continue along the responses from Mr. 
Sifton in terms of what is really behind this. And I understand 
that the FCRA was established to keep foreign money out of 
politics, but it seems like you are saying it was far more than 
that. I was wondering if you could provide a little more of the 
historical context, what was going on that led to it. And then 
I would also like to know more about Compassion's work.
    Mr. Sifton. I will just say really quickly, the testimony 
of my copanelists about the origins of law is correct, it was 
primarily a political control issue, similar to the legislation 
that Senator Fulbright moved through in the 1960s on the 
foreign agents law.
    The great irony, though, is just this year there were 
amendments to the FCRA that loosened the regulations for giving 
to political parties, which is an amazing irony to this whole 
thing and the history of it. But perhaps my copanelists would 
like to talk more about it.
    Mr. Nooruddin. Just on the background of the FCRA, I mean, 
and as I remarked and as Mr. Sifton just corroborated, the 
roots of this were to keep money out of politics, but what that 
really meant was to keep money out of civil society that took 
positions on issues that might be deemed sensitive to 
politicians.
    Ms. Bass. So was there a specific case that was happening 
in India? I understand what you just said.
    Mr. Nooruddin. Right.
    Ms. Bass. But in terms of the catalyst for it.
    Mr. Nooruddin. No, ma'am. The context was in 1976, during 
what in India we refer to as the Emergency period, in 1975 the 
then Prime Minister suspended civil liberties and established 
what was called the Emergency. It was in that period that this 
was passed, and the concern was that money could come into 
civil society actors that were pushing back against the 
Emergency legislation.
    Ms. Bass. I see, thank you.
    And then Compassion?
    Mr. Oakley. Thank you, Congresswoman.
    Briefly, in terms of the work that we do in India, across 
the world really, we believe in holistic child development. So 
we are interested in the physical, mental, emotional, and 
spiritual needs of the child to break the cycle of poverty.
    I will tell you one of the things I find most interesting 
about this specific case with India, we push approximately $45 
million a year in aid just to India, and by their own 
calculation the income tax commissioner of India has evaluated 
our operations at length and determined that merely 4 percent 
of that $45 million a year is for moral and spiritual values 
education. The remaining 96 percent, the overwhelming majority, 
is for all the types of humanitarian interventions you are used 
to seeing--provision of nutrition, food, clothing, medicine, 
school tuition, et cetera.
    Ms. Bass. So it is my understanding you work with children 
that are designated as undesirable.
    Mr. Sifton. Correct. Our population, our criteria for entry 
into our program is that you are either a child in poverty, as 
defined by the World Bank, less than $1.90 per day, or extreme 
poverty of less than $1.25 per day. That is the only criteria. 
There is no condition based upon religion or any other 
category.
    Ms. Bass. I see. Thank you.
    I yield back my time.
    Chairman Royce. We go to Congressman Matt Salmon from 
Arizona.
    Mr. Salmon. Thank you.
    I just have two questions and they are, I think, very 
similar in nature. Question number one is, does the Indian 
Government have the capacity to fill the void that has happened 
with these children, the services for these children? Do they 
even have the capacity to fill the void? And second, if they 
do, are they doing anything to try to fill that void?
    Mr. Oakley. Thank you, Congressman Salmon.
    The answer is no. Currently, the worldwide population of 
children in poverty is around 300 million, and, unfortunately, 
one-third of those, over 100 million of those are in India 
alone. So Compassion is actually just dealing with a very, very 
small fraction of that. The 145,000 children that are under our 
care, there will be no provision for them in the eventuality 
that we have to exit the country. They will become part of that 
100 million who are either entirely underserved or 
underreached.
    Mr. Salmon. My experience in dealing with humanitarian 
crises all over the world has been that the best deliverer of 
services, bar none, that I have seen anywhere on the globe are 
faith-based NGOs and faith-based initiatives. And I think it 
would be really tragic, really tragic, if we are not able to 
get the Indian Government to rethink this whole process in the 
name of the children. And I applaud you for your wonderful, 
wonderful work. And I think it is incumbent on us.
    We do have a great relationship, bilateral relationship 
with India. But even when you have great relationships, even in 
marriage when you have a great relationship--I have been 
married 37 years, I have a great relationship, and my wife 
still tells me when I do things wrong. And I love her for it. 
It is a great thing. And I think that even with a great partner 
like India we should be very, very outspoken about resuming the 
great work that you are doing and getting those children cared 
for.
    So thank you very much.
    Mr. Oakley. Thank you for that comment. And I would just 
like to reiterate that our desire is overwhelmingly to work 
with the Government of India to resolve this. We have been 
there for almost 50 years and we would love to be there for 
another 50. We believe that the diversity of India, 
religiously, ethnically, is a strength, not a weakness. They 
should lean into that. And we will help them as part of helping 
all of their poor kids.
    Mr. Salmon. Thank you. Mr. Chairman, I yield back.
    Chairman Royce. If the gentleman would yield.
    I think have you about 3 weeks left before the decision to 
just have to vacate entirely the program in India?
    Mr. Oakley. Correct, Mr. Chairman. We have simply run out 
of funds. We are unable to get funds into the country. We are 
actually faced with the problem that if we depart, we may not 
have funds to pay the legally obligated gratuity and severance 
benefits for our employees there. There are 6,000 people in 
India who are employed by Compassion funds through our channel 
partners. We have no provision for winding up in an orderly 
fashion if we can't work with the government.
    Chairman Royce. Let me go to Jeff Duncan of South Carolina.
    Mr. Duncan. Thank you, Mr. Chairman.
    First off, I want to thank you for your unwavering support 
for what Compassion International is doing and your focus on 
the children in India. I was proud when Prime Minister Modi 
came and spoke to a joint session of Congress last year, and I 
want to use my time to call on him at this point and the Modi 
government to end the pre-approval requirement for Compassion 
so that money can flow to where the rubber meets the road and 
where the needs are most dire.
    Mr. Oakley, how many children qualify as living in extreme 
poverty globally?
    Mr. Oakley. Currently, extreme poverty would be 300 
million, as I mentioned earlier. And about a one-third of that 
exists just in the nation of India and a fair bit in the South 
Asia area as well.
    Mr. Duncan. Right. Does Compassion accept children of all 
faiths?
    Mr. Oakley. Absolutely. There is no criteria of religion 
for admission to our program, simply economic need.
    Mr. Duncan. So my understanding is Compassion really 
focuses on holistic child development programs. Is the 
spiritual component of Compassion's holistic approach 
contextualized in any way?
    Mr. Oakley. Thank you. Absolutely. We operate in 26 
countries, in all three areas of the world, Asia, Africa and 
Latin America. And we understand, we recognize very well that 
each of those is very different. We have to contextualize our 
programming, both for the region that we are in, and it has to 
be contextualized from an age perspective.
    So to the extent that there is a spiritual and values-
driven component to our programming, it is age appropriate, it 
is culturally appropriate. We teach values that transcend all 
of the world's great religions. The values that we are teaching 
in India would be values taught by the Hindu faith, by the 
Muslim faith, Buddhist faith. They would transcend each of 
those religions.
    Mr. Duncan. So let me ask you this. If Compassion has to 
exit India, what are the implications for other faith-based 
NGOs there?
    Mr. Oakley. This is the concern I mentioned at the outset 
that troubles me greatly, because so many NGOs that are 
operating in India are doing so on budgets that are much 
smaller than ours, they don't have the network that we have. 
Certainly access to this forum is not something that is 
available to them easily.
    And if Compassion were to exit India, I really do feel that 
we sort of represent the canary in the coal mine, that if we 
go, the Indian Government has taken down the largest child 
sponsorship agency in the world, the largest importer of 
foreign NGO funds into India. They understand at that point 
there is very little to stop them from taking the same type of 
action against other NGOs.
    And I appreciated the comments of my colleagues earlier 
that if anti-national activity is anything the government 
doesn't agree with, it is not just the faith-based NGO 
community, it is a number of civil society organizations that 
have expressed opinions or have policies and platforms that are 
in opposition to those of the government, or perhaps simply not 
as aligned as the government would prefer. That is not--I hope 
that is not anti-national activity in India.
    So the trend here--I like to look at trends, where is it 
going--the trend is heading in the wrong direction. And this 
would be a significant bellwether to the Indian Government that 
their effort to stop NGOs that have positions with which they 
do not agree is working.
    Now, the Government of India, we do not intend to tell them 
what to do or how to do what they do. They are a sovereign 
nation. But they are also signatories and have ratified the 
ICCPR, and those provisions, by signing and ratifying that 
document, they have agreed to allow the freedom of expression 
of religion, freedom of political speech, all of those 
freedoms.
    So those are under attack and they fail to recognize that 
using policy in this fashion and using regulatory requirements 
and legal requirements in this fashion and then not following 
their own legal requirements in doing so, it is in violation of 
their own law and it is in violation of international law.
    Mr. Duncan. I co-chair the Sovereignty Caucus here in 
Congress, and I fully respect the sovereignty of nations to do 
what is in their best interest and what they feel like they 
need to do, so I don't intend any of my comments to trample on 
the sovereignty of India. But this is an urging of the United 
States Congress to the Modi government to embrace an 
organization that is filling a void.
    To piggyback on what Mr. Salmon said, the Indian Government 
doesn't have the capacity to help the children that Compassion 
and other NGOs help.
    And so let me ask you this. Are there any other pre-
approval requirements in any other countries that Compassion 
helps?
    Mr. Oakley. No, we currently do not have a pre-approval 
requirement in any of our 26 countries. And I can tell you from 
personal experience, I have spent the last 3 years working on 
this case, this is our hardest country to work in from a 
political and regulatory perspective.
    Mr. Duncan. I am about out of time. Let me just ask this 
final question. Has Compassion broken any laws in India?
    Mr. Oakley. None.
    Mr. Duncan. Wow. Okay.
    Mr. Chairman, thank you for your work. I yield back.
    Ms. Ros-Lehtinen [presiding]. Thank you so much, sir.
    And now we will turn to Mr. Chabot of Ohio.
    Mr. Chabot. Thank you, Madam Chairman.
    Mr. Oakley, is there any there any action that the Indian 
Government could take to enable Compassion to continue its 
operations in India?
    Mr. Oakley. Yes, there is. Thank you, Congressman. I 
believe the immediate step that would allow us to restore 
operations in the next 3 weeks would be rescinding the MHA's 
prior approval order of February 2016. That would allow funds 
to move directly from us to the 500-plus channel partners that 
are supporting the 145,000 children.
    Secondarily, we have to be able to pay our field staff on 
the ground. We have two locally incorporated entities, one in 
Kolkata, one in Chennai. Presently, both of those charitable 
entities have had their FCRAs revoked, although they had been 
in place for more than a decade. If those were restored--
because we think the revocation was in violation of law, 
certainly there was no notice, no indication as to why they 
were revoked--if those were restored, we could continue to pay 
our people who are assisting the children under our 
sponsorship.
    Mr. Chabot. Thank you. And if they would take that action, 
how many children would be affected and what would that effect 
be on their lives?
    Mr. Oakley. So presently, we had 145,000 children under our 
care as of this summer. Because of our decision to 
unilaterally, as a gesture of good faith, drop our partnership 
with any channel partner that had not received its FCRA as of 
the end of September, we actually departed 15,000 children at 
that time. So the 130,000 that are remaining are still under 
our care, although the operations for many of them are 
suspended at this time.
    If those operations could be restored quickly, the aid that 
we give, the food, the medicine--the school tuition is 
critically important because the school year is just about to 
commence in February in India and you have to enroll your kid 
and you have to pay tuition there, they have uniform 
requirements, all of these things--all of that could be 
restored quickly.
    And our commitment to the Indian Government would be we 
will be as transparent, as open, as cooperative as we can with 
you. If you are concerned about any project and whether or not 
there is anti-national or conversion activity going on at that 
location, tell us. We will work with you. We will eliminate 
that partner for as long as you have a concern about that 
partner. That dialogue has been something that has an eluded us 
thus far.
    Mr. Chabot. So if the Indian Government would take the 
action that you have recommended and that is the number of 
children that would be affected, on, say, a typical day, what 
are the types of things that you all do and what impact on a 
daily basis would it have on these children's lives?
    Mr. Oakley. Absolutely. In India that is a fairly high-
touch country for us, U.S. dollars go a long way. That is a 
very efficient place for us to operate. So the contact time 
with a child is quite high. Our programs run 5 to 6 days a 
week. These are child development centers that are attached to 
the local Christian church. They will receive one to two meals 
a day there. They will receive medical treatment if they need 
it, evaluations as to their health. They will also receive 
tutoring that is age appropriate related to the studies that 
they are doing.
    In some cases, we have medical interventions that are much 
higher need, surgeries, those types of things. Those will occur 
as well on a regular basis, particularly given the size of the 
population that we have in India. It is our largest country at 
present.
    Mr. Chabot. Thank you.
    And then finally, if the Indian Government does not take 
this action that we have discussed here, is there some other 
organization that is ready to step in and aid those children in 
the ways that you have just described.
    Mr. Oakley. That is a fantastic question. We have wrestled 
with that at length. As part of withdrawing, if we are forced 
to withdraw, we would very much desire to do so in an orderly 
fashion that is compliant with the law, as well as make 
provision for the transfer of some of those children to other 
NGOs operating in country, secular, faith based, just provide 
for them.
    We have done some preliminary analysis on that point. We 
think we could transfer potentially 10,000 to 15,000 children, 
nowhere near the 130,000 that we currently care for. The 
primary problem is distance. You have to be able to travel by 
foot typically to a child development center to receive the 
services we provide. So we have to find an equivalent somewhere 
within foot distance, and that can be very hard.
    Mr. Chabot. So it would be safe to say that if the 
government doesn't take that action, there are some children 
that are going to inevitably fall through the cracks here.
    Mr. Oakley. Not some. It will be more than 80 percent.
    Mr. Chabot. Thank you. I yield back my time.
    Chairman Royce [presiding]. Randy Weber of Texas.
    Mr. Weber. Thank you, Mr. Chairman.
    Mr. Sifton, you said earlier in your remarks you suggested 
parity, there needed to be some parity there, in talking about 
the fact that they wouldn't allow U.S. dollars to go to Indian 
NGOs. By parity, are you saying that we should not allow any 
Indian money to come in? Explain that.
    Mr. Sifton. Certainly not. I think that would violate U.S. 
law.
    Mr. Weber. Move your mic over in front of you. There you 
go. Thank you.
    Mr. Sifton. No, certainly not, it is not a threat, but 
rather an exhortation to the Indian Government that your 
wealthy or more fortunate citizens are entitled to give money 
to nonprofits and churches and educational institutions here in 
the United States, we should be allowed--our citizens should be 
allowed to give money to the same institutions in India.
    Mr. Weber. It is almost like a trade agreement, isn't it?
    Mr. Sifton. I mean, the great irony here is that Prime 
Minister Modi is making enormous efforts to attract foreign 
investment, bring foreign money into India, but not this kind 
of money.
    Mr. Weber. Yeah. All right. Thank you.
    Mr. Oakley, you said earlier the ICCPR was ratified by 
India. What is that?
    Mr. Oakley. Apologies for using the acronym. It is the 
International Covenant on Civil and Political Rights. India is 
a country that has ratified it. And those obligations, 
countries commit to those obligations understanding that they 
supersede their local law, that they are committing to those, 
that those commitments will then be embedded in their national 
law.
    Mr. Weber. When did they sign that?
    Mr. Oakley. I do not have the date, Congressman.
    Mr. Weber. How many countries have signed it? Do you know?
    Mr. Oakley. I believe the vast majority of the countries of 
the world. There are perhaps one or two that have either not 
ratified it or done so with reservations that have gutted it.
    Mr. Weber. Any teeth to that agreement? I mean, if they 
don't hold up their end of the bargain or live up to that 
agreement what happens?
    Mr. Oakley. Well, functionally, and this is true with most 
of the international covenants, enforcement is difficult, at 
least at a legal level. Typically what happens is there is 
dialogue around it raising awareness of the violations. It is 
almost an approach of shaming a country into abiding by their 
international commitments.
    The other approach, which we do not desire, is to litigate 
this issue, which would take more than a decade, and it would 
really be on behalf of the other NGOs who are remaining in 
India.
    Mr. Weber. In your opinion, would it be worthwhile to have 
a resolution expressing the sense of Congress that they think 
India has violated this and it is going to have a dire effect 
on their most unfortunate?
    Mr. Oakley. I think a resolution like that would be 
incredibly helpful from our perspective. But we are not alone. 
I think this would be incredibly helpful from the perspective 
of my colleagues here today and the broader civil society 
community.
    Mr. Weber. Okay.
    Dr. Nooruddin, you also made the comment that your 
colleagues said that this was ``discrimination disguised behind 
taxation,'' but that you didn't necessarily agree with that. 
Did I mis-hear that?
    Mr. Nooruddin. I think you did not. If I may expand. I 
think to demonstrate that this is discrimination would require 
a much more systematic analysis. Eleven and a half thousand 
NGOs have lost their licenses in the last year and a half. They 
are not all Christian faith based.
    Mr. Weber. So they are equal opportunity discriminators is 
what that means.
    Mr. Nooruddin. Well, maybe from their perspective they are 
equal opportunity appliers of a regulation that is not very 
transparent and is not very clear as to how you fall afoul of 
it. I think it is quite clear, and you can glance in my written 
testimony, I provide a link to the Indian Government Web site 
which lists the NGOs that have lost their licenses.
    Just anecdotally, I just glanced at page one. There are 22 
listed on page one. Nine of them have very obviously Christian 
names to them, invoking the Virgin Mary and invoking particular 
saints, et cetera.
    So my guess, Congressman, is that the particular 
application of this law across the 11,500 might quite possibly 
have a religious dimension to it, but it is not only that. It 
is very much environmental organizations, it is pro-democracy 
organizations.
    And of course there are a lot of organizations, as I 
mentioned up front, that were likely in violation of the law. 
They hadn't filed income taxes for 3 consecutive years that are 
required of the law, money had been channeled to places who had 
not gotten FCRA approval, et cetera.
    So there is a big bag of associations that have run afoul 
of this particular regulation, and I just wanted to suggest 
that we want to think of the whole picture.
    Mr. Weber. Thank you. I am out of time. I appreciate it.
    Chairman Royce. Reid Ribble of Wisconsin.
    Mr. Ribble. Thank you, Mr. Chairman.
    Good morning.
    Dr. Nooruddin, if a citizen in India donates money to a 
religious organization, is it tax deductible there? Or if a 
corporation does, is it tax deductible there?
    Mr. Nooruddin. No, sir.
    Mr. Ribble. It is not?
    Mr. Nooruddin. No.
    Mr. Ribble. Okay. Thank you for that clarification.
    I want to go back to be Mr. Oakley. Each of us were given a 
map like this, I appreciate you providing, I am assuming you 
provide the data. I am one of these sponsors. And Compassion 
just does amazing work in Wisconsin and around the world. My 
son Jared is a Compassion artist, has been for 10 years, and 
has raised tens of thousands, if not hundreds of thousands of 
dollars for your work.
    But I will guarantee you before this day is out I will 
either have someone tweet at me or put a Facebook posting who 
has seen this and they are going to ask this question. I would 
like you to give you the opportunity to answer it, because you 
are going to be better equipped to answer it. And this question 
is not based in cynicism, it is just going to be a question 
they are going to ask.
    And they are going to ask me, if the Indian Government 
doesn't want you there, and given that the needs around the 
world are so great, why would you not just redirect the money 
to other needs, to the Bolivians or the Hondurans or the 
Ethiopians? Would you mind answering that question for those 
folks?
    Mr. Oakley. Absolutely. Thank you for the question, and 
thanks for your support and your son's support as well.
    There are several answers to the question. One is simply, 
as I mentioned earlier, the extraordinary need in India. It has 
more children living in poverty than any other single country 
on Earth. So it is a great place for us to work with the 
poorest of the poor.
    We could exit and apply those funds elsewhere, and 
certainly those funds would be well utilized elsewhere. That is 
not our hope. We have been in India for a very long time. We 
see that the people of India, the people that we work with, the 
parents, the people within the poorest communities that we 
operate in, they want us to stay in India. They are incredibly 
grateful for the services we provide.
    And so I think Compassion, I am speaking for myself, but I 
believe for my organization as well, we go where the greatest 
need is. To the extent we can work in conditions of extreme 
poverty that is where you get the most bang for your buck in 
terms of outcomes. By working with children, you have a longer 
runway for those outcomes to be effective.
    We have had independent, third-party, peer-reviewed 
analysis of our program which determines that it works. So by 
operating in a country like India, which has over 130 million 
Muslims, it has got more than 50 million Christians, it is a 
diverse country religiously, in terms of ethnicities, 
languages, this is an extraordinary opportunity to help change 
the face of India by raising up its poorest children.
    Mr. Ribble. Thank you for that answer.
    And, Chairman Royce, I want you to know I would be 
completely supportive of whatever action this committee wants 
to take in relationship to this issue. It would be unfortunate 
indeed for the children of India to suffer the moral hazard of 
this choice if it results in you redirecting that money 
elsewhere in the world. Now, those other children would be the 
beneficiaries for sure, but that doesn't alleviate the problem 
in India. And so thank you for your work there and thank you 
for the work of Compassion.
    I yield back.
    Mr. Oakley. Thank you, Congressman.
    Chairman Royce. Mr. Dana Rohrabacher of California.
    Mr. Rohrabacher. First of all, I would like to thank the 
chairman for focusing our attention on this issue. Mr. 
Chairman, you could have focused on any number of issues, and 
let me just say it speaks highly of you and your values that we 
have focused on something that 130,000 kids are going to have 
an immediate impact on. So thank you very much, Mr. Chairman.
    I am trying to understand the overall issue here as well as 
the specific issue and challenge that you are facing here in 
Compassion. Is this part of a bigger picture? Look, we are 
suffering in parts of world of radical Islam, okay, and in this 
part of world maybe is this a result of Hindu fanaticism?
    Mr. Oakley. Thank you for the question, Congressman.
    It is difficult for me to get into the mind of another 
individual, let alone a political party in a country. I can 
tell you that based upon the timing of our challenges, having 
operated successfully for 45 years, and then to have a series 
of incredibly rigorous challenges in a very compressed period 
of time, in the last 3 years, in multiple contexts, so across 
different divisions of the Indian Government, and then looking 
at our own operation and recognizing that nothing has changed, 
everything that we are doing is the same.
    And then personally I have sat with six different law firms 
and multiple chartered accountants in India and asked this very 
question, are we legally compliant? Is there something that we 
are doing that in fact breaks the law? And to a person I have 
heard that, no, you are operating within the law. And again, as 
I mentioned in my opening comments, to the extent that the law 
is being broken, it is being broken by the Indian Government.
    Now, motive is difficult to understand. I will tell you 
that we operate in 26 countries, so I get a fairly high-level 
view of what is happening around the world and I see the rise 
of nationalism as being particularly concerning. It is very 
concerning in the Indian context, in part because of the 
numbers of minority groups that I mentioned earlier.
    And my view, and I believe the view of our organization, is 
that a test of a democracy is how it treats its poorest, its 
most vulnerable, its smallest minorities, not whether or not it 
is pandering to the desires of the majority.
    So from my perspective, I think something has changed in 
the last 3 years and the trend is going in the wrong direction.
    Mr. Rohrabacher. There are repercussions on these type of 
changes that we are talking about in the world, whether it is 
not just Hindu nationalism, not just radical Islam, but as you 
are expressed it today, you might say an upsurge of 
nationalism.
    I would have to say I disagree with you as to whether or 
not that is something that is inherently going to take people 
in the wrong direction. Quite frankly, nationalism in the 
United States, for example, has I think really accomplished 
some great things, and that is overcoming local prejudices and 
local challenges where we face that we are a country of 
everybody, of so many different type of people that it is the 
nationalism that keeps us together as a country.
    But with that said, I could see that some NGOs might 
actually, if they come in conflict with that spirit of 
nationalism, could basically end up in a conflict in that 
society where there were not conflicts before, which doesn't 
seem evident in your case.
    But, for example, if you have NGOs that are focused on 
government policy rather than providing charitable givings to 
people in need, that would be, I could understand, where a 
newly nationalistic government would not want someone from the 
outside coming in and being financed, asking them for a change 
in their law. However, obviously the change in law that did 
happen in your case has resulted in 130,000 kids being put in 
jeopardy.
    Let me again echo what my colleague just said in that 
whatever action this chairman would like to take on this to 
help you and your efforts to keep this charitable activity 
going in India, you will have our support and my support.
    However, I do think that it is time, Mr. Chairman, for us 
also to put into perspective as we see nationalism rising 
around the world what NGOs are supposed to be about and what 
some NGOs--I mean, if we are talking about a country that has 
30,000, did you say, NGOs?
    Mr. Oakley. No, more like a million.
    Mr. Rohrabacher. A million NGOs. Something is wrong there. 
Maybe many of those NGOs could be classified here as political 
organizations. And I know that in several other countries that 
is what we have. I will have to just say in one country that I 
asked--well, I asked about the political prisoners in Russia. I 
asked for a list of all the political prisoners. For years I 
could not get that list, because everyone wants to portray 
Russia as having thousands of political prisoners.
    Well, I got the list and there were a couple hundred people 
on the list, but a large percentage of them were on the list 
because they were part of Greenpeace. But they were not just 
part of Greenpeace, they were part of groups of people who went 
onto drilling platforms in the Arctic to try to prevent Russia 
from having Arctic drilling.
    Now, sorry, that would be illegal in our country as well. 
That is not what an NGO should be all about, is forcing a 
policy on someone, as compared to even advocating it.
    So I think that we need to have a closer look at NGOs, but 
I think your testimony today and this issue that we are talking 
about today really is valuable to us, because to understand 
that with--don't let us focus on some of these NGOs that are 
engaged with policy versus NGOs that are engaged with charity 
and how we must step forward. If we are going to save 130,000 
kids, we need to get behind you. And that is a really important 
message for this hearing.
    And thank you again, Mr. Chairman, for taking us here.
    Chairman Royce. Thank you.
    And on behalf of the committee, I want to recognize the 
outstanding work of Mr. Ribble of Wisconsin, who will, 
unfortunately, be retiring from the committee, as he is 
retiring from Congress. And I wanted to share with everybody 
how much I enjoyed working with him during his time here.
    We traveled together to the Congo. He has a passion for 
children and children abroad. He has personal experience with 
adoption. And he used that to good effect to help us bring some 
ultimately 400 children who had been adopted to get them out of 
the Congo where they had been stuck.
    He cares deeply about our Nation and its security. But also 
there is this private side of him that you saw a little bit 
about today, which is the fact that he is one of these donors. 
He and his family and his son donate to Compassion in order to 
reach a family abroad, in order to do what Amy Porter, my chief 
of staff, and her daughter do, which is to reach out to 
children in India and to provide them the means, the help, so 
that they can get an education and so that they might have 
enough food to eat.
    I want to thank the witnesses also for their participation 
and the committee members. I think we have a better 
understanding of the issue. As we heard today, Compassion is 
helping Indian children who are living often on less than a 
dollar a day. And they are in desperate need and we are all 
very worried that their support, support coming from our 
constituents, several thousand constituents, for example, in my 
district, will end in a matter of 3 weeks if we do not figure 
out a resolution to this, and that would be a tragedy.
    I mentioned the bureaucracy in my opening statement. It is 
the committee's sincere hope that this problem can be resolved 
in a way that allows for humane generosity to continue. The two 
great countries have so much in common. So many bridges have 
been built over the last 15 years. The ranking member, Eliot 
Engel, and I have been involved so much in this bridge 
building. And on top of it, we have the vision from the Prime 
Minister who leads India and his background as well.
    So I think I can speak for the committee in asking that 
those in India involved in this decision focus on this 
immediate resolution so that we can then go on to focus on all 
the other issues that bring our two great democracies together.
    Thank you very much. And with that, we are adjourned.
    [Whereupon, at 11:40 a.m., the committee was adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------                              


                   Material Submitted for the Record
                   
                   
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
               
                   
   
                                 [all]
</pre></body></html>
